No. _______
IN THE

Supreme Court of the United States
BRIGHAM AND WOMEN’S HOSPITAL, INC. AND INVESTORS BIO-TECH, L.P.,
Applicants,
v.
PERRIGO COMPANY AND L. PERRIGO COMPANY,
Respondents.
PROOF OF SERVICE
I, James M. Bollinger, a member of the Bar of this Court, hereby certify that
all parties required by the Rules of this Court to be served have been served. On
this 16th day of July, 2019, a copy of this Application for Extension of Time to File
Petition for a Writ of Certiorari to the United States Court of Appeals for the
Federal Circuit was mailed by first-class mail, postage prepaid to:
Jeffrey R. Gargano
MORGAN, LEWIS & BOCKIUS LLP
77 West Wacker Drive, Fifth Floor
Chicago, IL 60601
Peter M. Siavelis
BARNES & THORNBURG LLP
One North Wacker Drive, Suite 4400
Chicago, IL 60606
/s/ James M. Bollinger
James M. Bollinger
TROUTMAN SANDERS LLP
875 Third Avenue
New York, New York 10022
(212) 704-6000
james.bollinger@troutman.com

